                                                       NATIONAL SCIENCE FOUNDATION
                                                        OFFICE OF INSPECTOR GENERAL
                                                          OFFICE OF INVESTIGATIONS

                                                  CLOSEOUT MEMORANDLTM

    I((  Case Number: I09080046
                                                                                      11          Page 1 of 1



               This case was opened after our office received an anonymous allegation that a company1paid for
               alcoholic beverages with NSF funds.2 After reviewing records provided by the company, we
               found no substance to the allegation. We noted two questionable charges, but determined that
               recovery for the charges was not warranted.

              We investigated an additional allegation concerning the closure of one of the research sites3
              maintained by the company and supported by NSF funds, and determined that neither NSF nor
              the company violated any laws or regulations in taking actions and making decisions related to
              the closure of the site. We concluded that the allegation involved a challenge to the merits of a
              program decision, which is outside OIG's jurisdiction.

              Accordingly, this case is closed.




.    -        "3



     NSF 01G Form 2 (1 1/02)
